                OFFICE OF INSPECTOR GENERAL
                                     OFFICE OF AUDIT




           THE PUERTO RICO DEPARTMENT OF EDUCATION
           MUST INSTITUTE A TIME DISTRIBUTION SYSTEM


                                            OCTOBER 1997




                                   AUDIT CONTROL NO. A0250200




                                         FINAL AUDIT REPORT

Statements that financial and/or managerial practices need improvement or recommendations that costs questioned
be refunded or unsupported costs be adequately supported, and recommendations for the better use of funds, as well
as other conclusions and recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations on these matters will be made by appropriate Education Department officials.




REGIONAL INSPECTOR GENERAL                                            U.S. DEPARTMENT OF EDUCATION
FOR AUDIT, NORTHEAST AREA                                             NEW YORK, NEW YORK
                                         Table of Contents




FINDING    PRDE needs to implement a time distribution system . . . . . . . . . . . . . . . . . . . 1

                   Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                   PRDE’s response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                   OIG’s reply . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

APPENDIX Background
         Audit Objectives
         Methodology and Scope
         Internal Controls


EXHIBIT    PRDE’s complete response to the draft audit report
The Puerto Rico Department of Education must institute a time distribution system


FINDING                      The Puerto Rico Department of Education (PRDE) does not
                             have accounting policies and procedures in place for time
PRDE needs to implement      distribution of its employees who work on one or more
a time distribution system   programs. We tested two of the seven PRDE districts and
                             found 50 percent of the non-teaching Chapter 1, currently Title
                             I, employees worked on more than Chapter 1 activities but
                             failed to distribute their time. The problem is especially
                             prevalent in non-teaching positions where there are no
                             comparably funded local positions. As a result, the Chapter 1
                             program is being overcharged for salaries while other State and
                             Federal programs are being undercharged.
       Criteria              Office of Management and Budget (OMB) Circular A-87, is
                             applicable per ED regulation 34 CFR 74.175. OMB Circular
                             A-87 provides the basis for support for salaries and wages. In
                             part, OMB Circular A-87 states that when employees work on
                             multiple activities, a distribution of their salaries must be
                             supported by personnel activity reports or equivalent
                             documentation. Such documentary support is required when
                             employees work on more than one Federal award or a Federal
                             award and a non-Federal award.
Results of employee          We interviewed 91 Chapter 1 employees, consisting of 29
interviews                   teachers and 62 non-teachers, from the 1993/94 award year
                             payroll roster for two school districts: San Juan and Bayamón.
                             Although some Chapter 1 teachers reported they worked on
                             non-Chapter 1 activities, the amount of time was minor.
                             Therefore, the audit concentrated on the non-teaching positions.
       San Juan              We interviewed 26 non-teaching Chapter 1 employees in the
                             San Juan district and found 14 employees worked 100 percent
                             on Chapter 1. While 12 employees reported working 3 percent
                             to 43 percent of their work week on non-Chapter 1 related
                             activities.
       Bayamón               We interviewed 36 non-teaching Chapter 1 employees in the
                             Bayamón district and found 16 employees worked 100 percent
                             on Chapter 1 activities. However, 20 employees reported
                             working 5 percent to 35 percent of their work week on non-
                             Chapter 1 activities.
Final Audit Report -
Puerto Rico Department of Education                Page 4                                 ACN: 02-50200


                                      In total, 50 percent of the non-teaching Chapter 1 employees
                                      interviewed did not distribute their time despite working on
                                      more than Chapter 1 activities. For award year 1993/94, non-
                                      teaching positions accounted for $30,252,845 of the total
                                      budget of $217,223,165 for Chapter 1 funding for the
                                      Commonwealth of Puerto Rico. The lack of a time distribution
                                      system remained a condition during the 1996/97 award year.
 PRDE agrees a time                   PRDE lacks a time distribution system through all its districts.
 distribution system is               PRDE agrees a time distribution system should be implemented
 required                             and is working with Certified Public Accountants and legal
                                      counsel to develop policies and procedures for a time
                                      distribution system. PRDE expects to implement a time
                                      distribution system during the 1997/98 award year.



 Recommendation                       We recommend that the Department require PRDE to:

                                      ‘      Monitor the development and implementation of a time
                                             distribution system for all employees funded by U.S.
                                             Department of Education to ensure that it:

                                             a.      Includes written accounting policies and
                                                     procedures;

                                             b.      Distributes costs adequately and accurately; and

                                             c.      Is in compliance with Federal regulations 34
                                                     CFR 74.175 and OMB Circular A-87.
 PRDE’s response                      PRDE agreed with the finding and stated that they are in the
                                      process of formalizing and implementing a time distribution
                                      system for all employees funded by the U. S. Department of
                                      Education in compliance with Federal regulations 34 CFR
                                      74.175 and OMB Circular A-87. PRDE provided a time line for
                                      the development and implementation of the time distribution
                                      system. PRDE’s complete response and time line are attached
                                      as an Exhibit.
 OIG’s reply                          Based on the information provided, PRDE’s time distribution
                                      system should be sufficient to meet the requirements of OMB
                                      Circular A-87 and 34 CFR 74.175. However, after the system
                                      is in place, PRDE should have an independent assessment
                                      conducted to ensure the system is functioning as intended.
                                                 APPENDIX

Final Audit Report -
Puerto Rico Department of Education                Page 1                                 ACN: 02-50200


 Background                           The purpose of the Chapter 1 program is to improve the
                                      educational opportunities of educationally deprived children by
                                      helping children succeed in regular school programs, attain
                                      grade-level proficiency and improve achievement in basic and
                                      more advanced skills. The purpose is accomplished through
                                      means such as supplemental education programs, schoolwide
                                      programs, and the increased involvement of parents in their
                                      children’s education.
 Audit Objective                      The primary purpose of our audit was to determine if PRDE had
                                      a system in place that properly distributed Chapter 1 personnel
                                      charges.
 Methodology & Scope                  We interviewed officials at PRDE, U.S. Department of
                                      Education, and randomly selected teaching and non-teaching
                                      Chapter 1 employees from the San Juan and Bayamón school
                                      districts. However, we judgmentally selected the two school
                                      districts from a total of seven districts located throughout
                                      Puerto Rico. In addition, we conducted a reconciliation of
                                      Chapter 1 payroll expenditures to PRDE’s accounting records
                                      for award year ending June 30, 1994. We did not review the
                                      economy and efficiency of operations nor did we attempt to
                                      assess the results of the Chapter 1 program.
         Data Reliability             We relied on computer processed data for determining the
         Assessment                   universe of the non-teaching positions for the 1993/94 award
                                      year. We conducted a very limited test of the data provided and
                                      concluded the data was sufficiently reliable to be used to meet
                                      the audit objective.
         Audit Period                 The audit period was the July 1, 1993 through June 30, 1994.
                                      We conducted interviews of Chapter 1 employees during the
                                      months of June 1995, July 1995, October 1995 and August
                                      1996. Field work was conducted at PRDE’s offices in Hato
                                      Rey, Puerto Rico and at the San Juan and Bayamón regional
                                      district offices between January 1995 and August 1996. The
                                      exit conference was conducted on April 30, 1997.
                                      Our audit was conducted in accordance with generally accepted
                                      government auditing standards appropriate to the limited audit
                                      scope.
                                                 APPENDIX

Final Audit Report -
Puerto Rico Department of Education                 Page 2                                 ACN: 02-50200


 Internal Controls                    As part of our audit we assessed the system of internal controls,
                                      policies, procedures and practices applicable to PRDE’s
                                      processing of payroll for Chapter 1 employees.
                                      For the purposes of this report, we assessed and classified the
                                      significant controls into the following categories:

                                      ‘      Time distribution,
                                      ‘      Hiring Chapter 1 employees,
                                      ‘      Processing vacation and sick leave applications,
                                      ‘      Processing payroll, and
                                      ‘      Processing personnel changes.
                                                 APPENDIX

Final Audit Report -
Puerto Rico Department of Education                 Page 3                                 ACN: 02-50200


                                      Because of inherent limitations, a study and evaluation made for
                                      the limited purpose described above would not necessarily
                                      disclose all material weaknesses in the internal controls.
                                      However, our assessment disclosed a significant internal control
                                      weakness which adversely effects PRDE’s ability to identify
                                      time and effort for Chapter 1 employees, this weakness and its
                                      effects are fully disclosed in the FINDING section of this report.
                                                             APPENDIX


                                           REPORT DISTRIBUTION LIST
                                           AUDIT CONTROL NO. 02-50200


                                                                                                                               No. of
Auditee                                                                                                                        Copies

Honorable Victor Fajardo . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Secretary of Education
Puerto Rico Department of Education
P.O. Box 759
Hato Rey, Puerto Rico 00919-0759


Action Official

Mr. Gerald N. Tirozzi . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Assistant Secretary
Office of Elementary and Secondary Education
Portals Building
1250 Maryland Avenue, SW
Washington, D.C. 20202

Other ED Offices

Deputy Secretary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Office of General Counsel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Audit Liaison Officer, Office of Elementary and Secondary Education . . . . . . . . . . . . . . . . . . . 1
Director of Compensatory Education, Office of Elementary and Secondary Education . . . . . . . . 1
Supervisor of Post Audit Group, Office of the Chief Financial Officer . . . . . . . . . . . . . . . . . . . . 1
Office of Public Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Office of Inspector General

Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Assistant Inspector General for Operations - Eastern Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Assistant Inspector General for Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Assistant Inspector General for Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Director, Elementary and Secondary Education Advisory and Assistance Services . . . . . . . . . . . 1
Regional Inspectors General for Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
       Regions I through IX
